DOE F 1325.8
(08-93)
United States Government                                                         Department of Energy


memorandum
        DATE:   April 30, 2009                                      Audit Report Number: OAS-L-09-07
    REPLY TO
     ATTN OF:   IG-32 (A08OR024)
    SUBJECT:    Audit Report on "Controls over Royalty Oil Exchanges"
           TO:Deputy   Assistant Secretary for Petroleum Reserves

                INTRODUCTION AND OBJECTIVE

                The Department of Energy's (Department) Strategic Petroleum Reserve (Reserve) was
                established pursuant to the Energy Policy and Conservation Act of 1975 (Act). The
                Reserve is an emergency stockpile to be used in the event of a severe disruption in oil
                supplies. Under the Act, the Department is authorized to hold up to one billion barrels of
                oil in the Reserve. The Act requires the Department to minimize the cost and adverse
                market impacts of filling the Reserve. Additionally, the Energy Policy Act of 2005
                requires the Department to fill the Reserve to one billion barrels as expeditiously as
                practicable. The current capacity of the Reserve is 727 million barrels. As of
                February 28, 2009, the Department reported that the Reserve contained 705.5 million
                barrels of oil valued at $20.5 billion.

                The Department of the Interior's (Interior) Royalty-in-Kind exchange program has been
                the Department's primary method of filling the Reserve since 2002. Rather than
                accepting Royalty oil directly, the Department, through the exchange program, swaps
                Royalty oil from offshore leases collected by Interior for oil of comparable value.
                Department officials indicated that Royalty oil is exchanged to minimize market impacts,
                avoid potential contamination, and facilitate transportation to Reserve sites. Under the
                exchange program, Interior delivers Royalty oil to market centers where oil contractors
                take custody of it. These contractors then exchange the oil for oil of a different type or
                quality and deliver what is referred to as "exchange oil" to the Reserve. Responsible
                Department officials told us that contracts to exchange Royalty oil are awarded based on
                an evaluation of competing bids offered by oil contractors. They indicated as well, that
                the objective is to select the bid representing the best value to the Government as defined
                in terms of the quality, quantity, and price of the oil offered in exchange for Royalty oil.

                Since April 2005, the Department has exchanged about 29 million barrels of Royalty oil.
                In January 2009, the Department awarded additional contracts as part of its efforts to fill
                the Reserve to its current capacity. The Department plans to continue to use the
                exchange program to fill the Reserve to one billion barrels after additional storage
                capacity is
                                       2

added. Because of the considerable value of the oil and the importance of the Reserve to
United States energy security, we initiated an audit to determine whether controls in
place over Royalty oil exchanges were sufficient to protect the Government's interest.

CONCLUSIONS AND OBSERVATIONS

We identified certain controls that may not have been completely effective in ensuring
that the Government maximized the benefits of Royalty oil exchanges and reduced the
inherent risks of such exchanges. Specifically, the Department had not:

   •   Established sufficient controls over the quality of pricing data used to evaluate
       competitive bids;

   •   Evaluated the cost effectiveness of alternative strategies for the acquisition of oil
       for the Reserve; and,

   •   Incorporated specific provisions in exchange contracts to limit the Government's
       liability resulting from the quantity of oil delivered to the Reserve.

                     Pricing Data Used to Evaluate Competitive Bids

As part of its bid evaluation process, the Department used oil pricing data developed by a
consultant to evaluate competing bids. Working as part of a Federal and operating
contactor bid evaluation team, the consultant told us that he developed the pricing data
based on published market prices that were adjusted for items such as transportation costs
and market information obtained from the oil trading community. We noted, however,
that the Department had not: (1) developed written procedures prescribing the
methodology to be used in developing pricing data; (2) provided documentation showing
the verification of pricing data developed by its consultant; and, (3) established records
retention guidelines for documents related to the pricing analysis. As a result, the
Department could not demonstrate, and we were unable to confirm, the accuracy of most
of the data used in the analyses of recent bids.

In our judgment, the situation we found regarding exchange pricing data was inconsistent
with the Standards for Internal Control in the Federal Government that requires managers
to establish sufficient controls to ensure the proper execution and appropriate
documentation of transactions.

Despite these control and documentation shortcomings, we were able to review pricing
data for nine domestic crude streams evaluated in 2005 and 2007. We were able to do so
only because market data that included comparable transportation costs was publicly
available. In 2007, for each of the nine crude streams, the price developed by the
consultant differed from the published market price, with differences ranging from about
$0.44 per barrel (1 percent) to $6.39 per barrel (12 percent). The three largest price
differences reflected errors made by the Reserve's evaluation team. Instead of being
market adjusted prices, the prices used to evaluate bids were actually standard prices that
had not been updated. Reserve officials were unaware of the errors until we presented
                                        3

the results of our analysis. Although undetected, in these cases, the errors did not, as best
we could determine, affect the selection of the contractor. This was because the data
impacted all bidders equally. However, taking a forward perspective and depending on
the range of bids and types of errors, the use of inaccurate data in the future could result
in a failure to select the best offer.

Management officials told us that they believed that their consultant was well supervised
and his work was accurate. Management noted that the consultant worked directly as
part of a larger team, was directly supervised by both Federal and Reserve operating
contractor personnel and that the pricing data was fully vetted by all members of the
evaluation team prior to acceptance. While we agree with the general description of the
evaluation team's methodology, the errors found in the small number of transactions we
were able to examine led us to conclude that the controls described by management were
not entirely effective.

                                   Acquisition Strategies

The Energy Policy Act of 2005 established multiple objectives for the Department,
including filling the Reserve expeditiously while minimizing costs and market impacts.
The Department, however, had not evaluated the cost effectiveness of alternative
strategies for the acquisition of oil for the Reserve in meeting the Energy Policy Act's
multiple objectives.

The U.S. Government Accountability Office, for example, questioned the cost
effectiveness of the exchange program in its February 2008 testimony before Congress,
specifically drawing a contrast to using direct oil purchases as a method of filling the
Reserve. Department officials told us that they were cognizant of the information
presented in the testimony, but that they had not addressed the question of purchase
versus exchange because current Government policy required them to use the exchange
program to fill the Reserve. Program officials indicated that they recognized that direct
purchases may be a viable method for filling the Reserve but that they lacked authority to
use methods other than the exchange program for normal fill operations. Department
officials also questioned the feasibility of performing a cost effectiveness review that
would compare direct purchases to the exchange program because of the lack of
historical data on direct purchases. Department officials stated, however, that they could
perform such an evaluation of alternative acquisition strategies, identifying the pros and
cons of either approach, when the situational details of each acquisition are better known.

Department officials also noted that the exchange program could be made more cost-
effective, if Government policy allowed greater flexibility in the timing of exchanges to
take advantage of market conditions. Department officials noted that the Energy Policy
Act's requirement to expeditiously fill the Reserve limits its flexibility to time the
acquisition of oil. While they recognize that alternative strategies for acquiring oil may
be more effective than current practices, Department officials told us that they had been
deterred from evaluating alternatives since Government policy had already been
established to expeditiously fill the Reserve using the exchange program.
                                       4

According to the Standards for Internal Control in the Federal Government, managers are
required to evaluate program performance. Without an evaluation of the effectiveness of
alternative strategies for acquiring oil for the Reserve, policy level decision makers do
not have assurance that the current Reserve fill strategy decisions are based on the best
available information. Evaluating alternative strategies will become increasingly
important given the Department's plans to expand the Reserve and acquire an additional
273 million barrels of oil at an estimated value of about $16.5 billion.

                            Contractual Limitation of Liability

The Department also had not included a limitation of liability provision in its exchange
oil contracts. Controlling the flow of oil through the pipeline systems can be difficult.
The exact amount of oil actually delivered to the Reserve cannot be determined in
advance. If excess oil is delivered, the Department is required to pay not only for the
amount stipulated by the contract, but also for any excess. The Department believed that
the contract language for reconciling delivery differences sufficiently protected the
Government's interests. Based on our requested review of pertinent contract language,
the Department's Office of General Counsel concluded that a limitation of liability
provision would strengthen the Government's position. In response to our audit and
under the direction of the Office of General Counsel, the Department incorporated
additional language in the January 2009 Request for Offers to address this issue.

ACCOMPLISHMENTS AND SUGGESTED ACTIONS

This report is our second report on the Reserve's management of the Royalty-in-Kind
exchange program. In our prior audit report on the Department of Energy's Receipt of
Royalty Oil (DOE/IG-0786, January 2008), we concluded that the Department had not
implemented an effective internal control system over the receipt of Royalty oil at market
centers. Since the audit, the Department has taken action on our recommendations.
Specifically, the Department has modified contract language to require documentation for
Royalty receipts, established a reconciliation process with the Department of the Interior,
and developed a surveillance program for contractor relationships.

To address the issues identified in this report, we suggest that the Project Manager,
Strategic Petroleum Reserve:
   1. Develop written procedures prescribing the methodology to be used for
      establishing the prices of Royalty oil and exchange oil used in evaluating bids;
   2. Document the review and verification of pricing data used to evaluate bids;
   3. Establish records retention guidelines for documents supporting price analyses;
      and,
   4. Evaluate alternative acquisition strategies for filling the Reserve.
                                      5

We appreciate the cooperation of your staff and the various Departmental elements that
provided information and assistance.




                                     Joanne Hill
                                     Division Director
                                       for Energy Audits Division
                                     Office of Inspector General
Attachment

cc: Office of the Deputy Secretary
    Office of the Under Secretary
    Office of the Assistant Secretary for Fossil Energy
    Deputy Assistant Secretary for Petroleum Reserves
    Chief of Staff
    Team Leader, Office of Internal Review, CF-1.2
                                                                                 Attachment

                          SCOPE AND METHODOLOGY

We completed field work on the subject audit in April 2009. Audit work was conducted
at the Department of Energy (Department) Headquarters in Washington, D.C. and the
Project Management Office in New Orleans, Louisiana. The scope of the audit was
limited to Royalty-in-Kind exchanges from 2002 to 2007. To accomplish the audit
objective, we:

   •   Reviewed essential Royalty-in-Kind program documentation including
       Memorandums of Understanding, solicitations, and contracts;

   •   Analyzed the process for determining the price of oil to be used by the
       Department during offer evaluations;

   •   Reviewed pricing controls implemented when the Department made direct
       purchases of oil to fill the Strategic Petroleum Reserve;

   •   Assessed performance goals for the Royalty-in-Kind exchange program;

   •   Obtained and reviewed laws, regulations, policies, and procedures relevant to the
       Strategic Petroleum Reserve;

   •   Assessed the Department's adherence to Standards for Internal Control in the
       Federal Government related to documentation processes and performance
       measurement;

   •   Reviewed the results of prior audits and reviews;

   •   Held discussions with Office of Fossil Energy personnel, Strategic Petroleum
       Reserve personnel, and contractors; and,

   •   Coordinated with the U.S. Government Accountability Office.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objective. The
audit included tests of controls and compliance with laws and regulations related to the
Department's Royalty-in-Kind exchange program. Because our review was limited, it
would not necessarily have disclosed all internal control deficiencies that may have
existed at the time of our audit. Also, we considered the establishment of performance
measures in accordance with the Government Performance and Results Act of 1993 and
concluded that while we did not identify performance measures specific to the Royalty-
                                                                               Attachment

                                           2

in-Kind exchange program, we were able to document measures for the Department's
Strategic Petroleum Reserve. Finally, we did not rely on computer processed data to
accomplish our audit objective.

An exit conference was held on April 14, 2009.
